<html>
<title> - EFFECTIVE ENFORCEMENT OF U.S. TRADE LAWS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                EFFECTIVE ENFORCEMENT OF U.S. TRADE LAWS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON TRADE

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2016

                               __________

                          Serial No. 114-TR04

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
23-190 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e087908fa08395939488858c90ce838f8dce">[email&#160;protected]</a>  
 
 
 
                      
                      COMMITTEE ON WAYS AND MEANS
                      
                      

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan,
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff

                                 ______

                         SUBCOMMITTEE ON TRADE

                DAVID G. REICHERT, Washington, Chairman

DEVIN NUNES, California              CHARLES B. RANGEL, New York
ADRIAN SMITH, Nebraska               RICHARD E. NEAL, Massachusetts
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
CHARLES W. BOUSTANY, JR., Louisiana  RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                LLOYD DOGGETT, Texas
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
PAT MEEHAN, Pennsylvania


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of September 27, 2016 announcing the hearing............     2

                                WITNESS

Honorable R. Gil Kerlikowske, Commissioner, U.S. Customs and 
  Border Protection..............................................     5

                       SUBMISSIONS FOR THE RECORD

Express Association of America...................................    39
IWPA, International Wood Products Association....................    42
National Cattlemen's Beef Association............................    44
NTEU, The National Treasury Employees Union......................    47
The Southern Shrimp Alliance.....................................    57

 
                        EFFECTIVE ENFORCEMENT OF
                            U.S. TRADE LAWS

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                     Subcommittee on Trade,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 1100, Longworth House Office Building, the Honorable Dave 
Reichert [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 ----------

    Chairman REICHERT. Good morning. The subcommittee will come 
to order.
    Welcome to the Ways and Means Trade Subcommittee hearing on 
executive--Effective Enforcement of U.S. Trade Laws.
    I would like to extend a special welcome, warm welcome, to 
the Honorable Gil Kerlikowske. I think most members know that 
Gil and I were partners in the city of Seattle a number of 
years ago. Gil was the police chief in Seattle and I was the 
sheriff in King County, which is--Seattle is the county seat 
for King County. So we partnered on lots of things prior to 
coming to the jobs back here that we hold in Washington, D.C. 
So it's been a pleasure working with Gil and to have him here 
this morning. As you know, he is the commissioner of the U.S. 
Customs and Border Protection and brings a lot of experiences 
with him that helps him lead that team.
    Today, we are going to talk about robust enforcement of our 
trade agreements and our trade laws. They are essential to 
ensuring that American businesses and workers are treated 
fairly by our trading partners. Strong trade enforcement goes 
hand in hand with the opening of new markets through trade 
agreements.
    It is part of our commitment to the American people that we 
don't just sign trade agreements and let our manufacturers, 
farmers, service providers, and workers fend for themselves. If 
foreign competitors don't play by the rules and ignore their 
obligations, we will call them out.
    U.S. Customs and Border Protection, CBP as its known, plays 
a key role in ensuring that our trade agreements and our trade 
laws are enforced, and that legitimate trade is facilitated. 
Customs serves as the nuts and bolts of trade and a strong 
customs service is vital to our competitiveness, safety, and 
security. Over the years, the volume and complexity of trade 
has grown and the challenges that we confront, such as stopping 
the evasion of antidumping and countervailing duties and 
protecting U.S. intellectual property rights, have grown as 
well. As we face increasing competition around the world, we 
must keep legitimate trade flowing by focusing on our 
enforcement efforts of high-risk trade.
    The Trade Facilitation and Trade Enforcement Act, or the 
customs bill, which became law earlier this year, was the 
result of many years of hard work and commitment by the members 
of this committee on both sides of the aisle. In it, we 
established the necessary balance between trade and 
facilitation and trade enforcement that will help American 
businesses succeed and keep us competitive. Streamlining 
legitimate trade will increase U.S. competitiveness in the 
global marketplace and create jobs here at home.
    The customs bill reduces paperwork burdens for low value 
shipments by increasing the de minimis threshold where 
paperwork is not required from $200 to $800, as well as for the 
U.S. goods returned, and for residue of bulk cargo contained in 
tankers. These improvements save time and money for our small, 
medium, and large businesses that drive our economy.
    The customs bill also modernizes and simplifies duty 
drawback, a popular job-creating export program in place since 
1789. To increase accountability, the customs bill also 
strengthens and establishes reporting requirements for existing 
CBP trade facilitation programs such as the Centers for 
Excellence and Expertise, trusted trader programs, and the 
Automated Commercial Environment. These programs cut the red 
tape in government, reward businesses for good citizenship, and 
streamline trade.
    The customs bill reporting requirements allow us to do our 
job as the committee of oversight of ensuring the CBP stays on 
track with these programs. Strengthening enforcement of U.S. 
trade laws is the other major pillar of this customs bill. 
Enforcing U.S. intellectual property rights and antidumping and 
countervailing duty laws prevents our competitors from gaining 
an edge by cheating.
    The customs bill establishes tools for CBP and holds it 
accountable to clamp down on evasion of antidumping and 
countervailing duties, enhance targeting of high-risk shipments 
by requiring information from brokers, and strengthen internal 
controls over new imports. To protect intellectual property, 
the customs bill requires CBP to provide right holders with 
samples to help them determine if imported products are 
counterfeit.
    I want to congratulate my fellow subcommittee members and 
thank them for their hard work on the customs bill, former 
Trade Subcommittee Chairman Pat Tiberi, who led our efforts 
together with Chairman Brady; Dr. Boustany for his tireless 
efforts on the Enforce and Protect Act and modernization 
drawback; Mr. Marchant for his work on reducing paperwork 
burdens for residue and instruments on international traffic; 
Mr. Young for his good work on his de minimis bill; Mr. Meehan 
for his efforts to require country of origin markings on 
certain goods, which is common-sense approach to increasing 
transparency; Mr. Jason Smith and Ms. Sanchez, who were also 
very constructive in working on the Enforce and Protect Act.
    We also worked closely with Mr. Blumenauer, Mr. Kind, and 
others on the enforcement fund, and they joined several of our 
members in strengthening tools to combat forced labor. And 
Ranking Member Rangel was instrumental with regard to so many 
of the trade facilitation provisions.
    Today, we will have an important discussion about CBP's 
efforts to implement this critical new law, which if carried 
out effectively, will enhance our global competitiveness, level 
the playing field for our businesses, and prevent our 
competitors from gaining unfair advantage.
    Just on another note, Mr. Rangel, our witness today has to 
catch an airplane, and so we are going to be going to 3-minute 
questions. And I now yield to the Ranking Member for his 
opening statement.
    Mr. RANGEL. Thank you, Mr. Chairman, for calling this 
hearing.
    Commissioner, we recognize your tremendous 
responsibilities, and we are here for you to point out how we 
can be more helpful, especially during the crisis that we are 
going through. We all are concerned about the forced/child 
labor law. We understand that there hasn't been an enforcement 
over 60 years. Antidumping and intellectual property, the 
chairman has actually covered that. We recognize, in the event 
you have to leave, we will keep our questions short and hope 
that you might do the same with your responses to facilitate 
your departure. And we join with you in support of the hearing 
and how we can be legislatively helpful to the chairman.
    I yield back.
    Chairman REICHERT. Thank you, Mr. Rangel.
    And as I said, today, we are joined by one witness, 
commissioner of U.S. Customs and Border Protection, Mr. Gil 
Kerlikowske. And as I said, we are going to limit questions to 
3 minutes. He is going to shorten his opening statement.
    And, Mr. Kerlikowske, you are recognized.

 STATEMENT OF GIL KERLIKOWSKE, COMMISSIONER, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. KERLIKOWSKE. Chairman Reichert and Ranking Member 
Rangel----
    Mr. BOUSTANY. Check your microphone.
    Mr. KERLIKOWSKE. Am I on? Okay.
    Chairman Reichert, Ranking Member Rangel, Members of the 
Subcommittee, it is an honor to be here with all of you. And it 
is an honor to talk about CBP's role in enforcing what is an 
incredibly immense and complex area of U.S. trade.
    We enforce 500 laws and regulations on behalf of 47 Federal 
agencies. After the IRS, we collect more money for the Federal 
Treasury than any other organization. And we understand and 
recognize the importance of our enforcement efforts, and 
enforcement has been my entire background before coming to CBP.
    Illegal and fraudulent trade practices threaten our 
economic competitiveness, the livelihood of American workers, 
and consumer safety. I certainly want to thank the Members of 
Congress, and particularly this committee, for the Trade 
Facilitation and Trade Enforcement Act. CBP has been around 
since 2003 and has never been authorized. And now having the 
authorization and our regulations and rules all located in one 
place, along with our increased enforcement authority, is a 
huge milestone for us.
    The numerous parts of the act are complex. We are very 
engaged in fulfilling every measure of the act and the number 
of reports that Congress has required. And during the entire 
time that this process went out, I think the collaboration and 
the cooperation of the subject matter experts that CBP has in 
trade would have been very important. We have prioritized the 
policy, legal decisions, changing resources within our 
organization to meet this law, and that's been very important 
to us also.
    The chairman mentioned a number of the changes de minimis. 
The fact that you have approved a group of individuals that 
report to or work with the commissioner regularly that 
represent the trade stakeholders, and that has all been very 
important.
    I certainly acknowledge, despite our best efforts, that we 
are delinquent in some areas of the deadlines on the act, but 
we are working diligently to put all of that into place and 
going from not having authorization in 2003 to having this is a 
great step forward. So thank you.
    Chairman REICHERT. Thank you.
    [The prepared testimony of Mr. Kerlikowske follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                            --------
                            
    Chairman REICHERT. And we will go to questions quickly. 
Just a couple from me.
    The customs bill provides CBP with new tools to better 
enforce IPR, enhances opportunities for collaboration with 
rights holders in the United States, and expands CBP's seizure 
forfeiture authority to cover unlawful circumvention devices, 
and strengthens international partnership to stop 
counterfeiting at the source.
    Can you tell us what CBP has been doing to implement these 
measures and how they are assisting you in your efforts to 
protect intellectual property rights?
    Mr. KERLIKOWSKE. Well, I think the most important thing on 
the intellectual property rights, Chairman, is the fact that we 
co-chair or have the deputy's position in the intellectual 
property rights enforcement center that is run by Immigration 
and Customs Enforcement. Well over 20 Federal agencies sit in 
that one location and work very hard to target what may, in 
fact, be counterfeit or intellectual property rights violation.
    I think the highlight that I saw over the Christmastime 
was, in fact, a very dangerous product, hoverboards. Certainly 
dangerous, I am sure, if you try to get on at my age and 
balance on one. But what I would really see is the fact that 
the underwriters' laboratories seal, they were in fact 
counterfeit seals. We saw well over 50 fires that have occurred 
as a result of these. Working with Consumer Product Safety, we 
worked very hard to make sure that kids didn't get those gifts 
that perhaps they were expecting. That is just one example.
    I know there are a number of other examples where I would 
emphasize to you all that collaboration and a close working 
partnership with other Federal agencies is absolutely critical 
to us doing our job.
    Chairman REICHERT. Could you also update us on the status 
of regulation on seized circumvention devices called for in 
Section 303 of the customs bill?
    Mr. KERLIKOWSKE. So I know that that is under review. I 
know that we are working hard with members to produce, not just 
that information, but also the information that is certainly 
necessary for some of the other reports. And I would be happy 
to make sure that we provide an update to your staff on that.
    Chairman REICHERT. Okay. And, lastly, you did mention 
that--you recognized that you are a little bit behind in some 
of the reporting requirements. Do you have any sort of plan to 
make sure that--because it is one of the ways that this 
committee stays sort of in touch with what is happening within 
your organization. We are interested in your work, in 
particular, you know, seeing these reporting requirements 
established and the customs bill--customs bill implemented. How 
have you progressed and proceeded forward with the policy that 
addresses that?
    Mr. KERLIKOWSKE. So our office of trade put together a 
spreadsheet that actually shows all of the requirements that we 
have to meet, whether it is in reporting or rules that need to 
be promulgated, regulations, training, and information that 
needs to be--that needs to be communicated to Congress. When we 
not only put together that spreadsheet about where we were on 
each one of these requirements, we also took a look at what are 
the most important, according to staff members and others, and 
triage those.
    I will tell you that we are well on the way. A number of 
things have already been implemented and people have been 
shifted to deal with these responsibilities. But I would tell 
you that we are well on the way before the end of this calendar 
year to be able to have the majority of these reports, 
regulations, requirements in place, and we will be more than 
happy to keep your staffs aware of this, our progress.
    Chairman REICHERT. Knowing you personally, I know that 
today we have your commitment that we will have those reports. 
Thank you.
    Mr. Neal, you are recognized.
    Mr. NEAL. Thank you, Mr. Chairman.
    Commissioner, each day 125 Americans are dying from drug-
related overdoses, and it is acute in parts of Massachusetts, 
particularly in the old cities. Many of these victims are 
succumbing to powerful synthetic drugs like Fentanyl, which 
are, as you and I both know, hundreds of times more potent than 
heroin. The toll these drugs are taking is alarming and 
unprecedented. And I joined Pat Tiberi recently to offer a 
bipartisan effort to hopefully stem this growing epidemic.
    Stopping these drugs from coming through the borders, as 
you know, is a priority. The Synthetics Trafficking and 
Overdose Prevention Act is designed to stop dangerous synthetic 
drugs like Fentanyl from being shipped through our borders. 
Specifically, the bill would require shipments from foreign 
countries through our postal system to provide electronic 
advance data, such as who and where it is coming from, who it 
is going to, where it is going, and what is in it before they 
cross our borders. Having this information in advance will 
enable CBP to better target potential illegal packages and keep 
these dangerous drugs from ending up in the hands of drug 
traffickers who do great harm to our communities.
    Commissioner, Congress wants to give you the tools to stop 
these drugs from crossing our borders. Would you agree that 
this bill perhaps could be very helpful and that there are more 
tools that you might suggest to us at this moment that can 
provide better help to get the job done and help fight now what 
has become a national issue?
    Mr. KERLIKOWSKE. Congressman, I really appreciate the 
effort that Members of Congress--and I participated in three 
field hearings on heroin and Fentanyl issues around the 
country, so I know--from Arizona to Massachusetts, so I know 
that this is a significant issue.
    As you know, from some of our reporting, our seizures of 
Fentanyl at the borders, particularly at the ports of entry, 
have increased dramatically, but we still have, of course, that 
unknown issue about the Fentanyl that is shipped from overseas 
and comes in through the air cargo. Having a manifest in 
advance to be able to target, rather than just the random 
selection that goes on now, and with the explosion in the 
increase in air cargo, that information would be very helpful.
    And I will be happy to continue to work with you and with 
the Members of the Committee and the subcommittee to make sure 
that if there are additional tools needed--you know, the 
difficulties with Fentanyl in both trying to detect it, also 
the dangers to enforcement personnel. I think Fentanyl is a 
tremendous threat, not only to the populous, but also to law 
enforcement personnel. So thank you very much for the work you 
are doing on that.
    Mr. NEAL. A colleague recently said--and you could give us 
perhaps a quick answer. A colleague recently said that before 
Fentanyl is treated, that if a dog or a police officer were to 
sniff it in its rawest form, that it could kill them?
    Mr. KERLIKOWSKE. Very much so. That is why we don't train 
K-9s, because of that. And also the fact that Fentanyl, when 
you look at it in the hospice--or the hospital setting, the 
Fentanyl patches are absorbed through the skin as very, very 
powerful painkillers. So raw Fentanyl that comes into contact 
either through nasal passages or through skin absorption can be 
very dangerous to personnel. So the more--and, of course, the 
other part is the Department of State working closely with the 
countries where we know that this is illegally manufactured and 
then shipped.
    And we had some success, by the way, on synthetic drugs 
working with the Government of China a few years ago, when I 
had a different job in the administration. But Fentanyl, I 
think is--your recognition of the significant danger that you 
just mentioned is an important one for us to consider.
    Mr. NEAL. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman REICHERT. Yes, sir.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman.
    Thank you, Commissioner, for being here today, and 
certainly thank you for the service of the men and women of 
Customs Border Patrol--Border Protection, I am sorry.
    Obviously, the tasks in front of your agency are important 
from keeping us safe from terrorists to leveling the playing 
field commercially for U.S. industry to compete on a level 
playing field. So we thank you for your service.
    You mentioned in your testimony that CBP enforces U.S. 
trade agreement commitments. So I would ask that with China 
currently negotiating the Regional Comprehensive Economic 
Partnership with 16 countries in the Pacific region, what would 
you say is at stake, from an enforcement perspective, should 
the U.S. fail to act on trade agreements moving forward?
    Mr. KERLIKOWSKE. So one of the most important things that 
we recognize and do is that, frankly, on the trade enforcement 
issues, we are the pointy end of the sphere. When it comes to 
the negotiation and the discussion and the work with Members of 
Congress on trade agreements, we take the advice, although we 
have embedded someone with the USTR and Ambassador Froman's 
office. We try to judge all of the information that comes to 
us. As these discussions and negotiation occur, we try to make 
sure that our point of view, which is how is this going to be 
enforced and what are we going to be able to do to enforce it, 
is absolutely critical.
    I mean, we have recognized that we not only have that 
border security responsibility, but we also recognize the 
economic security responsibility that we have. And when the 
chairman and I were in Seattle and you would see that port, you 
knew how important it was to facilitate particularly exports of 
produce from Washington State to make sure that it got out.
    So we will work closely with Congress. We will work closely 
with the USTR, who is the lead on this, along with the 
Department of Commerce, to make sure that the enforcement 
priorities are recognized and that we have the tools and the 
capacity to be able to do our job.
    Mr. SMITH. Thank you. But do you see lost opportunity if we 
fail to take action on trade agreements moving forward?
    Mr. KERLIKOWSKE. Well, it is kind of--it is a bit out of my 
portfolio and a bit out of my lane. We tell the people that--
again, with Ambassador Froman in the USTR, we tell them what we 
need and what is important for us to be able to do the 
enforcement. We also let them know that we have to be able to 
be in a position to expedite cargo coming into the country 
safely and to expedite our export safely. But when it comes to 
that area for me that is more of the political decision, I am 
kind of out of the politics and I am in the enforcement 
business.
    Mr. SMITH. All right. Thank you, Commissioner.
    I yield back.
    Chairman REICHERT. Mr. Blumenauer, you are recognized.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    Welcome, Mr. Commissioner.
    Mr. KERLIKOWSKE. Thank you.
    Mr. BLUMENAUER. I want to follow up a little bit. You have 
alluded to the fact that enforcement is complicated. It 
involves numerous agencies. You have a piece of the pie, not 
all of it. I would note that this committee has been aggressive 
in trying to advance a trade enforcement trust fund so that 
there would be resources, at least on the House side. There is 
$15 million to try and enhance that effort. I assume a portion 
of which could be made available to you if it were actually 
brought to bear. Is that your understanding?
    Mr. KERLIKOWSKE. It is my understanding. And the working 
relationship, since the USTR oversees that part. But the 
working relationship with the USTR and their recognition of our 
needs is one that I believe they are well aware of, and the 
support that we have received from Ambassador Froman on these 
issues is very helpful in a variety of ways, and the money 
certainly would be helpful to some of our enforcement efforts.
    Mr. BLUMENAUER. Mr. Chairman, I am hopeful that our 
subcommittee might be able to encourage that. The Senate is 
AWOL in terms of the additional enforcement resources, which I 
think we all agree is necessary to be able to make sure that we 
get full benefit of the trade agreements that we have.
    One of the areas that is cloudy for me, I have spent a fair 
amount of time working on enforcement provisions dealing with 
illegal logging. And, again, you don't have full thrust with 
the Lacey Act provisions, but you folks are involved with some 
illegally harvested timber that is on its way to the United 
States, recently shipments that have been intercepted. Could 
you speak a little bit to how we are proceeding with that and 
what, if anything in addition, would help you with your piece 
of that responsibility?
    Mr. KERLIKOWSKE. So one of the things that I think we have 
done pretty successfully as a result of the support of 
Congress, and I know there will be questions about this later, 
is ACE, the single window or the single portal when it comes to 
trade. But that has actually forced us to be a bit of the 
convener and the collaborator with all of those different 
Federal agencies. Because, frankly, with 60,000 employees, we 
have more boots on the ground than USDA and a number of the 
other enforcement provisions. You know, I am very familiar with 
the incident from last December involving the Peruvian lumber 
and the fact that--how that was brought to our attention. And I 
appreciate your recognition that USDA, in fact, is the primary 
enforcement authority. But with a number of people that we have 
at our ports of entry and the amount of information that we 
collect on cargo at our national targeting center, makes a huge 
difference.
    So, one, we could not have had better cooperation and 
collaboration, whether it's on educating us about steel and the 
dumping of steel or the alleged dumping of steel and also on 
timber also.
    Mr. BLUMENAUER. Mr. Chairman, I appreciate it. I see that 
my time expired very quickly. But this is an area that I hope 
that we again might explore. We have got several agencies that 
are struggling with making sure that a provision in the 
existing trade agreement is honored, and I am hopeful that we 
can continue to work with our witness and others to see if we 
can sort that out to make it work better.
    Chairman REICHERT. Great. Thank you, Mr. Blumenauer.
    Dr. Boustany, you are recognized.
    Mr. BOUSTANY. Thank you, Mr. Chairman.
    Welcome, Commissioner. You know, as we have sought American 
leadership in creating a rules based trading system, 
enforcement is clearly important, and, which is why I worked 
very hard over a number of years to give you the PROTECT Act, 
which provided a full array of tools so that you could be much 
more effective and aggressive in going after abuses.
    But one my priorities was Section 605. I know you are aware 
of it. We have spoken about it before. And this was to undo a 
great injustice that came about because of inaction at Customs 
and Border Protection with respect to crawfish producers and 
other small producers across our country, honey, mushrooms, 
garlic.
    Under the law, we have seen crawfish producers entitled to 
antidumping duties collected as a result of dump crawfish from 
China from 2000 to 2007, well over $100 million in abuses and 
duties owed. But unfortunately, slow enforcement from CBP, 
unjustifiable delays from the insurance companies that post 
these bonds, these collections are still underway and going 
painfully slow.
    We finally had a little breakthrough with $6 million 
collected from one insurance company. And instead of turning 
over that money to these crawfish producers, who are going out 
of business, CBP chose instead to deduct 90 percent of that to 
pay self--pay itself interest.
    Now, Section 605 was designed by myself and Senator Thune 
to stop that and to assure that these poor producers who are 
going out of business are paid what they are owed under 
American law. And yet I understand now CBP is simply ignoring 
this Section 605 as written and putting its own wishful 
analysis in place to continue to hold onto this interest. 
Frankly, I think that is just unacceptable, and I am not going 
to let up until this abuse is corrected.
    Mr. KERLIKOWSKE. So a couple of things I mentioned on that. 
One, it wasn't until--in fact, the crawfish producers and the 
others came to Washington, D.C., asked to meet with me and we 
sat down that I had the recognition and the information, the 
fact that when we collect those interest duties--that the 
interest went back under the law, under the existing law then, 
that the interest went back to CBP. I said, you know, when I 
was the police chief, if you were the victim of a crime and the 
perpetrator had to pay a fine, the fine shouldn't go for the 
police department. The fine should go back to the victim.
    That's been changed. And a lot of progress has been made. 
And I was proud and pleased to see the $6 million. I would tell 
you there is another substantial amount of money that is in the 
work also to go back.
    The one thing where I think there is certainly some 
disagreement, and I understand that it is in litigation right 
now, is how far back the understanding is that interest 
payments would be, in fact, returned to a victim. There is also 
a bit of a technological problem, because we have to figure 
out, in those fines and information collected, what was 
interest versus what was the penalty. And not all of our 
systems are, frankly, that accurate and that flexible to go 
back X number of years.
    So if you think about where we were and the money coming to 
us instead of going to the victim, if you think about our 
interest now and working very hard--and, in fact, we have even 
gone to a collection agency to look at, is where a collection 
agency that could do a better job of trying to go after the 
money that we have been unsuccessfully attempting to get. So I 
think we are pretty close, but I understand your frustration, 
and I recognize it.
    Mr. BOUSTANY. Thank you. I am going to stay on this. And we 
want as prompt an action as possible. This has to be resolved, 
because if America is going to lead in trade, we have to have 
enforcement of our laws and they have to be enforced with the 
intent that Congress lays out.
    Thank you. My time has expired.
    Chairman REICHERT. Thank you.
    Mr. Kind, you are recognized.
    Mr. KIND. Thank you, Mr. Chairman.
    Commissioner Kerlikowske, first of all, I want to commend 
you. I worked hard to get included in the Trade Enforcement 
Act, shutting down this loophole on the exploitation of child 
or forced or slave labor. And since its enactment in February, 
you, under your leadership, the agency has brought four 
enforcement actions already against China on that front. And, 
you know, for 85 years, there was a prohibition against it, but 
because of the loophole, it was seldom enforced. And now you 
are taking that tool, you are running with it. I commend you 
for doing so.
    My question is how pervasive do you think this problem is? 
How many more future actions? But before you answer that, can I 
also get your opinion, because it is my sense that in those 
bilateral, multilateral trade agreements that we have with 
other nations, those countries tend to act like better actors 
when it comes to playing by the rules, not trying to cheat, you 
know, living up to the standards and values that were included 
in those agreements, as opposed to nations that we don't have 
any trade agreement with. Is that an accurate description of 
what you see out there?
    Mr. KERLIKOWSKE. I think what I have seen is the leadership 
that the United States--and I lead the delegation to the World 
Customs Organization, 180 members. And what we have tried to 
communicate to customs organizations all over the world is that 
they need to have this recognition and understanding about the 
importance of facilitating lawful trade, but also the 
importance of doing enforcement.
    I think in far--in too many countries that I have seen, the 
issue is always around how much money can customs collect, 
versus what is their enforcement posture. Because it costs--you 
know, takes people to do the enforcement and it costs money. So 
I would tell you that I think we have made some progress in 
that particular area.
    It is hard for me to judge exactly on the forced labor and 
the child labor issues and prison labor, because one of the 
things that we did was to reach out and gather as many of the 
nongovernmental organizations who exist within those countries. 
They are frankly the eyes and ears on the ground, and we needed 
to make it easier and we needed to welcome the information that 
they would give us about what is a potential violation.
    And as you know, there is only a reasonable suspicion 
standard. It wasn't a probable cause standard. We can take 
action on a less critical amount of information, and I have 
made it clear to everyone in our organization that we do need 
to take the action once we reach that threshold of reasonable 
suspicion.
    Mr. KIND. What about the distinction as far as those 
nations that we have a trade agreement with versus those--the 
vast majority that we don't as far as compliance and playing by 
the rules?
    Mr. KERLIKOWSKE. You know, I don't have an opinion. I have 
the list of the number of free trade agreements that we have, 
but I have never really given it the analysis about whether or 
not they are greater at playing by the rules. I am sure there 
are some real experts that can inform you.
    Mr. KIND. Okay. Fair enough. Thank you.
    Thank you, Mr. Chairman.
    Chairman REICHERT. Thank you.
    Mr. Paulsen.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    And, Commissioner, thanks for being here. You know, a key 
component of the customs modernization is the completion of 
ACE, the Automated Commercial Environment, and ITDS, the 
International Trade Data System or that single window. These 
systems are going to help provide Customs Border Patrol, 
obviously, and other Federal agencies with the improved real-
time information on imports and manual processes then get 
streamlined--they are automated in 200 different paper forms--
end up being eliminated. I know that ACE has been in 
development for a long period of time, but I want to commend 
CBP, the Customs Border Patrol, for the great strides you have 
made in the last couple of years towards implementation.
    I know, although your efforts are to be commended, there 
are some Minnesota businesses that I have had contact with that 
continue to express some concerns about the implementation 
process because large companies, of course, are able to be in a 
position where they can absorb large losses that may result 
from a shipment that gets held up at the border due to a 
technical issue with ACE. But the smaller companies that 
operate on a relatively thin margin, they don't have that same 
luxury.
    So can I just have your commitment or can you chat a little 
bit about how you are going to continue to work with the trade 
community and partner with government agencies as that rollout 
goes forward to make sure it is smooth?
    Mr. KERLIKOWSKE. Sure. Part of the fact that in our 
authorization that you have affirmed that there will be a 
standing committee that will report with or to the commissioner 
that represents trade stakeholders, freight forwarders, 
business people, importers, manufacturers, et cetera. We have 
had that in place for a number of years, but frankly, a change 
in administration could have done away with that. The fact that 
that is in the law now I think is one very helpful.
    So four times a year for 2 days each we get direct feedback 
from the people that are doing the work, and we have had great 
participation in that. So I would commit to you two things. One 
is that we are very intent. And after all of the platforms that 
have been launched, that ACE will be a running viable 
commercial entity for both the private sector and also for 
government by the end of this calendar year. And we appreciate 
the support from Congress for all of the work.
    And if you go back--you know, even when we were working 
through some the more difficult platforms, we ended up having 
daily phone calls with well over 100 participants, including 
the small business people, to make sure that they were getting 
their questions answered and to make sure that we were doing 
our job of telling them, well, where are we with the 
implementation. So thank you.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Chairman REICHERT. Mr. Pascrell.
    Mr. PASCRELL. Thank you, Mr. Chairman.
    American companies that invest in designing in marketing 
valid products are losing sales and seeing their brands 
tarnished by manufactured products that violate United States 
law.
    I am pleased that the customs bill we passed earlier this 
year included several provisions to strengthen intellectual 
property rights enforcement at the border, including raising 
the enforcement priority for counterfeit products.
    So we don't want open borders to people and we don't want 
open borders to products, yet that is exactly what is going on 
here in terms of products. Given this enforcement 
prioritization for counterfeit products, can you outline the 
screening process for packages marked as gifts, and can you 
share any new steps the CBP is taking to enhance enforcement in 
the area?
    Mr. KERLIKOWSKE. I can. I think there are several things. I 
can't give you the specific information on the gift issue, and 
I think you are mostly talking about that air cargo environment 
and the mail environment.
    I will be the very first to admit to you that, given the 
explosion of e-commerce and air cargo, this is one that we're 
working on very closely. Having manifest information in advance 
is certainly going to be an issue that is critically important. 
Having enough people at the locations at FedEx and UPS and, 
frankly, at our international--our five international mail 
facilities is also important. And the fact that UPS and FedEx 
have been incredibly good partners in putting forward 
enforcement funds and, essentially, boots on the ground to 
assist us. The international--the intellectual property rights 
center for the targeting is very important. And about 2 weeks 
ago we cut the ribbon on the new national targeting center for 
CBP, which has been mentioned. So we are making progress.
    Mr. PASCRELL. Thank you. I am very concerned about the 
staffing shortfall at CBP. That is very dangerous. You know, we 
have four borders. You would think, listening to the Congress, 
we only have one border, the Rio Grande River, that is it. We 
have ports in New Jersey that are facing increased wait times 
for incoming shipments.
    The staffing, how would this impact staffing shortages that 
you have? And are these--are there things that you can do to 
address the shortfall?
    Mr. KERLIKOWSKE. So we are very disappointed that, one, we 
haven't been able to hire with the money that Congress gave us 
a number of years ago after working closely with Members to 
show that when you put people on board at CBP, they actually 
help to make money for this country by speeding things through.
    We are a law enforcement organization. We are not about to 
reduce our stringent hiring standards. And I haven't spoken to 
a local police chief or a sheriff or a Federal law enforcement 
official that has not expressed the difficulty of hiring. But 
we are working very closely. And I think the bright spot is one 
with the military, because we are now accepting--and I just was 
down at Fort Bliss to recruit people. We are now looking for 
people to leave one uniform and come into another uniform 
coming out of the military. And also reducing the amount of 
processing time, because there are a lot of jobs available for 
qualified people. And we have gone from over 400 days of 
processing time, way, way too long, down to about 160 days.
    So we are making progress, and we are going to do our very 
best to use the appropriated funds that Congress has given us 
to hire up to the number that are authorized.
    Mr. PASCRELL. Mr. Chairman, in conclusion, I would really, 
since we have worked very close on public safety issues, I 
would really ask you to take a look at the number of personnel 
that they have and the more responsibilities that have been 
given to them, now that we have discovered also that we have 
three other borders. We need to take a very extended look at 
this, and I would trust your judgment as to the conclusion. 
Thank you.
    Chairman REICHERT. Well, Mr. Pascrell and I chair the Law 
Enforcement Caucus together, and as the commissioner said, 
sheriffs and police chiefs across the country are having the 
same problem that his agency is having, and that is finding, 
first of all, people who want to come into law enforcement 
positions; secondly, not only finding people who have the 
desire but who have the qualifications. And I commend the 
commissioner for making the statement that there is no way that 
he is going to lower his standards. And I think that should 
hold true for law enforcement agencies across the country.
    So I appreciate your concern. And, yes, I look forward to 
working with you on this through the caucus.
    Mr. Meehan.
    Mr. MEEHAN. Thank you, Mr. Chairman.
    And thank you, Commissioner, for your long service to law 
enforcement. And I thank you for your efforts in working so 
quickly to help draft an interim guidance with respect to the 
Enforce and Protect Act. We are already seeing some cases that 
are being prosecuted or investigated, and I think that is very, 
very helpful. But as you know, we are getting a lot of activity 
on the part of those who find ways to circumvent the process.
    When I was a United States attorney, we worked--and I am 
glad to hear you talk about collaboration with other partners. 
One of the most effective things that we had to use the Federal 
laws to enforce violations for things like qui tam laws and 
others, which invited the participation of interested parties 
and, actually, the investigative resources that we were then 
allowed and able to work with.
    When I have looked at your efforts with respect to the 
drafting of the interim final rule, you narrowly defined the 
parties to the investigation more narrowly than I would expect 
it would be. Can you look at that and determine whether we 
ought not have a larger classification of those who can 
participate in as a, quote, ``parties to the investigation''? I 
think we are going to have an awful lot of resources that could 
be available to help us get around this.
    Mr. KERLIKOWSKE. Congressman, I appreciate your 
recognition, particularly of qui tam cases. And I meet 
regularly with U.S. attorneys, particularly the U.S. attorneys 
that are border U.S. attorneys. We are a huge part of their 
portfolio. And the qui tam cases are not--as a U.S. attorney, 
they are not always one--the one that is going to get any 
headlines. And, number two, they can be very labor intensive. 
So we have done a couple of things.
    One is we have some real subject matter experts in these 
cases. And we want to be able to hand to an AUSA, an assistant 
U.S. Attorney, on a silver platter a case that is already put 
together and to make it easy for them.
    The other thing that I have done is to call, whether it is 
the U.S. attorney in the Southern District of New York or the 
former U.S. attorney in Los Angeles, when they have made those 
kinds of trade cases, I have called them up to congratulate 
them and to tell them, you know, how much we appreciate their 
work. I will be happy to take--to go back and take a look at 
the recognition that you have----
    Mr. MEEHAN. And I am--my time is limited, so I want to ask 
one more question with respect to specific importers.
    Mr. KERLIKOWSKE. Sure.
    Mr. MEEHAN. Part of the problem we see, particularly in the 
steel industry, is the ability for importers to go through 
third parties, to dump into another country, and then to get 
that steel into the United States. And one of the problems with 
steel, but it can be any number of products, is the requirement 
that we go back more specifically and identify the country of 
origin. And it works against the ability to have more of a 
deterrent effect.
    Can you see if there is any ability to drop the requirement 
for allegations to identify a specific importer to be able to 
police this kind of--you know, this kind of circumvention?
    Mr. KERLIKOWSKE. Sure. I would be happy to look at that. I 
would also tell you that we have made significant improvements 
with our laboratory sciences division to be able to test steel, 
regardless of whether it comes from Mexico or Canada or another 
country, to be able to determine the country of origin. And, in 
fact, whether, as the Wall Street Journal just recently 
reported, on some allegations and concerns about aluminum and 
steel in Mexico, we are--our scientists are better at 
determining that country of origin now.
    Mr. MEEHAN. Thank you, Mr. Chairman. I yield back.
    Chairman REICHERT. Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    And thank you, Commissioner. Commissioner, as I know 
customs is aware, 1 year ago today, 71 containers filled with 
Amazon rainforest timber, enough estimated to cover a number of 
football fields, almost 4 million pounds of timber, arrived 
from Iquitos, Peru, in the Port of Houston, Texas. And based on 
specific actual information, customs properly used its legal 
authority to exclude that shipment for 30 days. Did it not?
    Mr. KERLIKOWSKE. Yes, we did.
    Mr. DOGGETT. And that specific actual information came from 
the Peruvian environmental authority. After that, as you know, 
a coffin was carried through Iquitos with his name on it, and 
he was eventually fired by the Peruvians.
    During the year, other than what the Peruvians did, what 
has Customs done? Have there been any other shipments of logs 
from Peru that have entered the U.S. since that time?
    Mr. KERLIKOWSKE. Congressman, I am not familiar with any 
additional shipments of timber from Peru. I was very involved 
that weekend, as many of our personnel were, on making sure 
that we have the right authorities and the right people. 
Because if we don't allow that commodity then to come into the 
country and that commodity no longer makes a profit, that sends 
a powerful message back----
    Mr. DOGGETT. So it is your belief that since that shipment 
arrived in Houston, that there have been no other shipments in 
the United States of Peruvian timber?
    Mr. KERLIKOWSKE. I can't answer that, but I have not been--
--
    Mr. DOGGETT. That is a question that I--I didn't want to 
surprise you with any questions today.
    Mr. KERLIKOWSKE. Right.
    Mr. DOGGETT. That was one of the questions that I sent you 
last week that your staff said that you could answer today.
    Mr. KERLIKOWSKE. I am sorry. You know, I think I probably 
received about 120 different questions from different members. 
I am happy to take a look.
    Mr. DOGGETT. Well, can you tell me, one of the other 
questions I asked was, during the 8 years that the Peru trade 
promotion agreement has been in effect, do you know how much 
Peruvian timber has been imported into the United States?
    Mr. KERLIKOWSKE. I don't.
    Mr. DOGGETT. Do you know the answers to any of the 
questions that your staff said you would be prepared to answer 
today?
    Mr. KERLIKOWSKE. I do know, and I think I have been--I have 
done my very best to help make an understanding that with 
60,000 people and 800 people----
    Mr. DOGGETT. My only--I appreciate your testimony, but 
since I have 30 seconds, my question is can you answer any of 
the questions that I posed to you last week that your staff 
told me you would be ready to answer today? There were five of 
them.
    Mr. KERLIKOWSKE. I think I did.
    Mr. DOGGETT. You have not answered any of them yet. And I 
would just ask you, do you know when you can answer them, when 
you can provide an answer to those questions?
    Mr. KERLIKOWSKE. I think I can provide an answer at the 
conclusion of the hearing.
    Mr. DOGGETT. Great. Well, I would like to have had it 
before so we can discuss it. But you are aware of the 
percentage of that shipment in Houston that was illegal timber, 
are you not?
    Mr. KERLIKOWSKE. I am aware of that shipment, having worked 
it all over the whole weekend with Ambassador Froman, the 
Department of Commerce, the Department of Agriculture. So it 
wasn't like anybody was asleep at the switch on that, and we--
--
    Mr. DOGGETT. I think there is a question about 
indifference, but you know the specific percentage of that 
shipment of 4 million, almost 4 million pounds of timber, you 
know the specific percentage that was illegal timber, don't 
you?
    Mr. KERLIKOWSKE. I don't know. I don't.
    Mr. DOGGETT. Your office knows that information?
    Mr. KERLIKOWSKE. Well, I think--and I would be happy to 
communicate right after----
    Mr. DOGGETT. Yes, sir. But I had an opportunity to ask you 
about it today, and that is why I sent you the questions in 
advance that you have not answered, but thank you.
    Mr. KERLIKOWSKE. Okay.
    Chairman REICHERT. Thank you, Mr. Doggett.
    Mr. Marchant.
    Mr. MARCHANT. Thank you, Mr. Chairman.
    Commissioner, I represent one of the largest airports in 
the United States, the DFW airport. Could you share with us, 
please, the problems and the major challenges that you are 
presented with in enforcing the trade pact of 2015 as it 
relates to DFW airport and then specifically the larger 
airports in the United States?
    Mr. KERLIKOWSKE. I need just a little bit of clarification. 
On trade or on the travel issues?
    Mr. MARCHANT. On----
    Mr. KERLIKOWSKE. Because we get a lot of air cargo that 
comes in.
    Mr. MARCHANT. Yes.
    Mr. KERLIKOWSKE. And so the inspections at air cargo, 
whether at DFW or Miami, when it comes to produce and other 
things, you know, we have our agricultural inspectors, many of 
whom will be graduating from a class, in fact, today down in 
Florida--in Georgia.
    So we do a lot of inspections of those things, whether it 
is fresh produce or others, or people coming in that, in fact, 
have plant material that can harm our agriculture industry.
    We get 112 million international passengers a year, so the 
challenges in an airport the size of DFW or JFK or LAX are 
pretty immense, but I think our folks do a very good job of 
trying to make sure that they are protecting the environment 
and protecting our agriculture industry.
    Mr. MARCHANT. Thank you, Mr. Chairman.
    Chairman REICHERT. Mr. Rangel.
    Mr. RANGEL. Thank you, Mr. Chairman.
    Thank you, Commissioner. I know you have to leave. Does 
your commission involve itself with the need of improvement in 
infrastructure? Would the improvement of infrastructure be of 
any assistance to you in the enforcement of laws?
    Mr. KERLIKOWSKE. Yeah. The infrastructure improvements that 
were made to our ports of entry as a result of the American 
Recovery Act were immense. Many of those projects were already 
planned in the works----
    Mr. RANGEL. Are you satisfied that we are keeping up with 
our infrastructure in order to support your efforts to enforce 
the law effectively?
    Mr. KERLIKOWSKE. We have a number of plans to increase our 
ports of entry. The new JFK terminal with JetBlue, the work 
that has gone out at Houston Hobby and others.
    Mr. RANGEL. How do you share your plans? Were they included 
in the omnibus bill where you had input?
    Mr. KERLIKOWSKE. They are. We work closely with the 
interagency, with GSA and others, and we work closely with 
Members of Congress who have particular interest in trying to 
improve their facilities.
    I couldn't agree with you more when it comes to an 
efficient, well-planned infrastructure for international air 
travel or cargo makes a huge difference in us being able to 
enforce.
    Mr. RANGEL. Well, my point is, do you have an overall plan 
that you can present, rather than depending on Members, so that 
when we are talking to a President, no matter who she might be, 
about a plan for infrastructure, we could include your plan as 
a part of that overall plan as relates to commerce and 
interstate trade? Do you have that?
    Mr. KERLIKOWSKE. We do have that--we do have that plan. We 
do work it through the interagency.
    Mr. RANGEL. Could you share your commission's plan as it 
relates to improvement in infrastructure as it impacts on your 
job?
    Mr. KERLIKOWSKE. I can.
    Mr. RANGEL. And I might say, if you can recommend anything 
to this committee that you think could help you to enforce the 
laws that we have already passed, it would be helpful.
    Mr. KERLIKOWSKE. I can.
    Mr. RANGEL. I yield back.
    Chairman REICHERT. Mr. Young.
    Mr. YOUNG. Hello, Mr. Commissioner. Thanks for being here 
today.
    Mr. KERLIKOWSKE. Thanks.
    Mr. YOUNG. So it is no secret there is a major trade 
agreement that will soon come before Congress. And sort of 
outside the scope of this hearing, I have got major concerns 
about several provisions of that agreement, including 
intellectual property protections. But with that said, I am not 
confident that agreement will move forward.
    There is a school of thought out there, however, that we 
should wait to consummate any trade agreements whatsoever until 
we fully enforce all existing trade agreements. And I feel very 
strongly, as do so many of my colleagues on both sides of the 
aisle, that we have to be very vigilant about enforcing trade 
agreements. This is why I and others have supported giving 
tools, a new Trade Enforcement Trust Fund, new legal options to 
those whose rights have been violated or intellectual property 
stolen. And your agency, Customs and Border Protection, we have 
given you new tools to go after those who would evade 
antidumping and countervailing duties provisions.
    So my question is this: Though I know you have already 
reassured us that you will be vigilant, what impact do you 
think it would have on, say, Indiana manufacturers, Indiana ag 
producers, who want to sell to 95 percent of the world's 
consumers who are outside of the United States, if we waited 
until we fully enforced every existing trade agreement?
    Mr. KERLIKOWSKE. So I think my answer on full enforcement 
is one that I am often asked in other settings, and that is on 
border security, also exactly what is border security and what 
are the numbers? We make a lot of seizures. We seize a lot of 
products that come in. We work very hard to be open and 
transparent with the agriculture and the manufacturing 
stakeholders. And I think you all have heard that repeatedly 
from the trade.
    Full enforcement is probably one of those that's in the eye 
of the beholder. But I think the fact that we send a strong 
message to the rest of the world that we are going to work very 
hard to inspect and to seize and to enforce the laws that 
Congress has passed.
    Mr. YOUNG. Yes. So in short, as the commissioner of Customs 
and Border Protection, do you believe that we can make 
significant improvements, stay vigilant, enforce our trade 
laws, while opening up foreign markets to Indiana manufacturing 
goods,food, fiber, et cetera?
    Mr. KERLIKOWSKE. Yeah. I think we know very well the----
    Mr. YOUNG. Yes?
    Mr. KERLIKOWSKE. Yes.
    Mr. YOUNG. Thank you.
    I yield back.
    Mr. DOGGETT. Mr. Chairman, I neglected to ask you for 
unanimous consent to insert into the record of the hearing my 
letter to the commissioner on September 23 with the questions 
that I referenced.
    Chairman REICHERT. Without objection.
    Mr. DOGGETT. Thank you.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 -------

    Chairman REICHERT. Mr. Tiberi.
    Mr. TIBERI. Thank you, Mr. Chairman.
    Mr. Commissioner, I recently introduced a bill with several 
of my colleagues called the STOP Act, Mr. Neal referenced to 
you earlier, to try to keep illicit drugs from entering our 
country through foreign posts. And just this last weekend in 
Cleveland, Ohio, seven folks died from overdoses of these 
drugs.
    This bill would extend the same level of advanced 
electronic security screening to packages coming into the 
United States from overseas through the postal system, the U.S. 
Postal System, that currently applies to the same packages that 
come in through private carriers. Senator Portman has 
introduced it in the Senate on a bipartisan basis as well.
    And last week, in the Senate in front of the committee, the 
assistant commissioner in the Office of Field Operations of 
CBF--CBP stated that having access to advanced electronic data 
would allow CBP to be more effective in targeting potentially 
illicit shipments. Do you believe that having access to 
advanced electronic data from these foreign shippers would help 
you all perform more sophisticated risk analysis in order to 
target these potential illicit shipments?
    Mr. KERLIKOWSKE. I do. Just as the information that's been 
helpful in recognizing people that shouldn't get on an airplane 
because of advanced passenger information and the same way with 
cargo that comes into this country that is manifested, for 
instance, on a ship 72 hours in advance and even preloading, 
having that information so that we can do everything that we 
can based upon risk is important, and yes, I agree.
    Mr. TIBERI. Thank you. Certainly, I appreciate your efforts 
in drafting an interim final rule on the Enforce and Protect 
Act. I was Trade chairman when that process began. And we were 
very clear that CBP was to operate under specific deadlines. 
The law created a mandatory deadline of 300 days to make a 
final determination, but in your interim role, sir, in the 
discussion section, CBP seems to imply that these rules are 
aspirational. So in our opinion, there is no flexibility under 
the statute in these deadlines.
    Can you clarify to the committee what plans you seem to 
want to follow in terms of timeline set in the statute by 
Congress?
    Mr. KERLIKOWSKE. Well, we do want to obey and follow all of 
the timelines that have been set. And I wasn't aware of the 
kind of distinction that you were talking about, that the 
proposal may be more aspirational than fact based, and I am 
happy to spend a little time looking into that and finding out 
about that.
    But, you know, we were given a lot of timelines with a lot 
of work, and I can assure you we are going to do our very best 
to meet those and we are going to do our very best to 
prioritize and triage those as the most important to the 
subcommittee and the committee as a whole.
    Mr. TIBERI. I appreciate that. Thank you for your 
leadership, sir.
    Chairman REICHERT. Thank you, Mr. Tiberi.
    We moved through the questioning rather quickly, but I want 
to give the members who are still present here one last 
opportunity, if anyone has a burning question left, I would 
like to recognize that member.
    Mr. Doggett.
    Mr. DOGGETT. Thank you very much, Mr. Chairman.
    Just continuing then, Commissioner, this action that you 
took in September of last year concerning this approximately 4 
million pounds of Peruvian timber, had that ever been done 
before or since?
    Mr. KERLIKOWSKE. We have seized lumber--I don't know about 
Peruvian timber, but we have seized lumber in the past and held 
it. Of course, it can be expensive and difficult when you are 
making those seizures, so----
    Mr. DOGGETT. Yes, sir. When you do make those seizures, who 
is responsible for storing the timber?
    Mr. KERLIKOWSKE. We ask that the private sector, that the 
party that was involved in this, that they bear the cost of 
that rather than the American taxpayer.
    Mr. DOGGETT. And they are requested to provide a bond or 
insurance on the timber?
    Mr. KERLIKOWSKE. We request that they make the payment, 
whether it is through a bond until a final determination is 
made, but we want that--we work very hard to try and get that 
money in advance on a seizure storage.
    Mr. DOGGETT. With the information that has come out, that 
is still--a very significant portion of Peruvian timber is 
illegally harvest, does that not provide you specific 
actionable basis for holding each shipment that comes to the 
United States from Peru?
    Mr. KERLIKOWSKE. I think it would provide, with the United 
States Department of Agriculture, under their authority, a 
great deal of information. As I said earlier in the testimony, 
we have a lot of boots on the ground in a lot of places where 
USDA or Consumer Product or others don't. That is why 
collaboration is really important.
    Mr. DOGGETT. Well, they have authority. You have authority 
for the 30-day hold like that that you put--or the 30-day 
preventing them from entering the United States that you 
utilized last September.
    Mr. KERLIKOWSKE. And we need to make sure that we do it in 
conjunction with the information that they provide us. You are 
right.
    Mr. DOGGETT. And you don't--you say you do not know how 
much Peruvian timber has come into the United States in the 
last 8 years?
    Mr. KERLIKOWSKE. Congressman, I just don't have that right 
in my mind. It actually may be in the book with all of the 
information.
    Mr. DOGGETT. All right. So I may be able to get it 
afterwards, as well as to find out how much of that has been 
inspected?
    Mr. KERLIKOWSKE. I am happy to tell you that.
    Mr. DOGGETT. And the 4 million pounds of timber, is it 
still sitting in Houston today, a year later?
    Mr. KERLIKOWSKE. It was excluded from entry into the 
country.
    Mr. DOGGETT. Does it sit in a ship? Has it gone back to 
Peru? Or what has happened to it?
    Mr. KERLIKOWSKE. I know that it was excluded so that the 
profit that could be made of that timber coming into the United 
States could not be--could not go back to the illegal loggers.
    Mr. DOGGETT. Is it being held in Houston?
    Mr. KERLIKOWSKE. I don't believe it is.
    Mr. DOGGETT. Okay. You think it is not anywhere within the 
boundaries of the United States, including our territorial 
waters?
    Mr. KERLIKOWSKE. I don't believe it is.
    Mr. DOGGETT. And are you able to identify to us the 
importers and our consignees of that timber?
    Mr. KERLIKOWSKE. I believe we have protests filed by 
several different organizations so that some of the--over that 
seizure. So some of this is in litigation.
    Mr. DOGGETT. What are the----
    Chairman REICHERT. The gentleman's time has expired.
    Mr. DOGGETT. Thank you.
    Chairman REICHERT. Any other member have--wish to be 
recognized?
    Well, I want to thank the commissioner for his testimony 
today. Thank you for answering the questions and also 
committing to providing us with follow-up information and the 
reports that we have requested.
    Please be advised that members will have 2 weeks to submit 
written questions to be answered later in writing. Those 
questions and your answers will be made a part of the formal 
hearing record. Our record will remain open until October 11th. 
And I urge interested parties to submit statements to inform 
the committee's consideration of the issues discussed today.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 11:09 a.m., the subcommittee was adjourned.]

                       Submissions for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
